                                      Documentation of Oral Communications From Registered Lobbyist
                                          Concerning Policy Matters Related to the Recovery Act
This notification is made pursuant to Sections 3(d)-(e) of the Presidential Memorandum For Heads of Executive Departments and Agencies dated March 20,
2009, entitled Ensuring Responsible Spending of Recovery Act Funds. At the outset of the oral communications concerning the Recovery Act, individuals or
parties appearing or communicating were asked if any of them were lobbyists registered under the Lobbying Disclosure Act. The registered lobbyists
appearing or communicating were informed that DOT OIG officials would discuss policy matters only and that DOT OIG employees would have no oral
communications concerning particular projects, applications, or applicants for funding under the Recovery Act. The registered lobbyists were informed that
they could provide written communications concerning particular projects, applications, or applicants for funding under the Recovery Act, which we would
publicly post on our Recovery Act webpage.

    Date                Time            Registered Lobbyists                 DOT OIG Employees
                    (start to end)      (name and employer)                   (names and titles)
 05/20/09          10:00 AM to Matthew Paxton, President        Brenda James, Program Director
                   11:00 AM    Ian Bennitt,  Manager,Government Anita Visser, Senior Analyst
                               Affairs                          Marvin Tuxhorn, Senior Analyst
                               Shipbuilders Council of America
                               (SCA)

                                                    Short Description of Substance of Oral Communications
 When scheduled (if unscheduled, state “Unscheduled”)
 Meeting scheduled via e-mail 05/19/09

 In-person or telephonic communication (if other, describe)
 Meeting in-person at Shipbuilders Council of America office, 1455 F Street, NW, Suite 225,
 Washington, DC 20005
 OIG Audit or project number (w/ hyperlink if available)
   ARRA Agency Scan - Phase II 09U3002M000

 DOT Mode and Program
   DOT/OIG/JA-40
   Program: Maritime Administration (MARAD) Small Shipyard Grants Program (SSGP)
 Subjects raised during oral communications and concise summary
 OIG discussed with SCA the state of the small shipbuilding industry and the need for the SSGP, its members'
 perspective of MARAD's administration of the FY 2008 and FY 2009 programs, and the Jones Act.
                                                                              #

      Template A
      Page 1
